                                                                                                  OIG Recovery Act Plan Overview

                                    OIG Name: Department of State (including the U.S. Section of the International Boundary and Water Commission (USIBWC)


                                               The overall objectives of OIG's oversight of Department of State Recovery Act funds are to ensure: 1) timely, effective implementation of
                                               Recovery Act projects and activities in compliance with ARRA requirements; 2) timely, accurate reporting on the use of Recovery Act funds and
                 OIG Broad Recovery Act Goals: the progress of ARRA-funded projects and activities; 3) establishment of proper internal control procedures to mitigate instances of fraud, waste,
                                               error, and abuse; and 4) confirmation that contractors and other fund recipients meet eligibility requirements and comply with award
                                               requirements.

                                               OIG has initiated an ongoing dialogue with Department and USIBWC managers and coordinators responsible for Recovery Act implementation,
                                               providing targeted information on fraud awareness, contract/procurement best practices, and internal controls. Hotline posters and publications
 OIG Broad Training and Outreach Recovery Act  and OIG's Internet and intranet Web sites are being updated to highlight and facilitate Hotline reporting of waste, fraud, abuse, and
                                       Goals: mismanagement related to the Recovery Act funding and projects. Fraud awareness briefings are being expanded and focused to highlight fraud
                                               indicators and vulnerabilities specific to Recovery Act. OIG is an active participant in RATB Working Group activities and coordinates across the
                                               Inspector General and oversight communities on Recovery Act oversight initiatives.


                                               To ensure effective identification, monitoring, and mitigation of the major financial and programmatic risks related to Recovery Act funds, OIG
                                               has met with senior managers responsible for Department ARRA coordination and individual bureaus receiving Recovery Act funds to gain an
                                               understanding of the Department's implementation plans and determine where control weaknesses may exist. OIG holds periodic consultations
                                               with the Office of the Under Secretary for Management (M/PRI) and the Chief Financial Officer (CFO) to coordinate overall Recovery Act
     OIG Recovery Act Risk Assessment Process: oversight, including the receipt of regular reports on the current status of funds obligated and expended. Based on these consultations, information
                                               provided by the Department and IBWC, and an internal analysis of the Department and IBWC implementation plans, OIG has identified the most
                                               significant programs upon which to focus its oversight efforts. Initial oversight projects include audits and inspections to: 1) assess the overall
                                               controls that the Department and USIBWC have in place to track and report Recovery Act funds, and 2) highlight key challenges, including the
                                               adequacy of procurement personnel, facing the Department in overseeing ARRA-funded programs and projects.

 OIG Staff Dedicated to Recovery Act Oversight: OIG has approximately one-half FTE dedicated to Recover Act Oversight.


                       OIG Recovery Act Funds: $2,000,000
    Expiration Date of OIG Recovery Act Funds: 30‐Sep‐10


 OIG Recovery Act Funds Allocated to Contracts: Yes

                                                 Contractors will be used to augment existing OIG staff, as necessary, and to provide specialized subject matter expertise not available in‐house  (e.g., 
            Purpose of Recovery Act Contracts:
                                                 architects and engineers). 
   Types of Recovery Act Contracts Awarded to 
                                               One contract (indefinite quantity, indefinite delivery) has been awarded to date. Several others are expected to be awarded shortly. 
                                        Date:

           Link to OIG Recovery Act Work Plan:




                                                  

Page 1 of Overview                                                                                                                                                                                           State OIG Recovery Act FINAL Work Plan 101609.xlsx
                                                                                                                                     OIG FY 2010 Recovery Act Work Plan

                A                B                   C                     D                   E                       F                                      G                                                     H                                    I              J                 K                  L                M              Q
                                                                                                                                                                                                                                                      Review 
                                           Recovery Act Funds                                                                                                                                                                                                       Expected      Expected                Expected 
                                                                                      Entity Performing                                                                                                                                            Included on 
             Agency        Program Area        Associated          Type of Review                                Project Title                          Background                                             Objectives                                         Quarter Work    Quarter(s)             Number of 
                                                                                           Review                                                                                                                                                 Prior Recovery 
                                            w/Program Area                                                                                                                                                                                                           Begins     Reports Issued             Reports
                                                                                                                                                                                                                                                  Act Plan (Y/N)
       1
                                                                                                                                     A/RPM, in coordination with GSA, will be            The inspection will evaluate controls and systems 
                                                                                                           Inspection of the Office  involved in property site selection, construction,  in A/RPM including those related to ARRA 
                                                                                                           of Real Property          and renovation projects being funded with $342      projects.  ARRA‐specific Inspection fieldwork was 
                          Bureau of                                Administrative/                                                                                                       limited because most ARRA funding was released 
           State Dept.                         $342 million                           OIG Staff            Management (A/RPM)  million in ARRA funds.                                                                                                   Yes       Qtr. III 2009   Qtr. I 2010        1
                         Administration                              Financial                                                                                                           after the inspection fieldwork phase was 
                                                                                                           in the Bureau of 
                                                                                                           Administration                                                                completed. 
       2
                                                                                                                                  Section 1523(a)(2)(D)of the Recovery Act                 OIG administered the RATB survey.  The results 
                                                                                                                                  requires the Recovery Accountability and                 will be incorporated into a broader report on the 
                                                                                                                                  Transparency Board to review whether there are           adequacy of  acquisition and grant personnel 
                                                                                                                                  sufficient qualified acquisition and grant               governmentwide to provide oversight of 
                                                                                                                                  personnel overseeing ARRA funds. Given its               Recovery Act funds.  OIG also initiated a separate 
                            Bureau of                                                                      Procurement Personnel  limited staff, RATB has requested IG community           review to evaluate  whether the Department has 
           State Dept.                      $600 million            Other Review          OIG Staff                               assistance in conducting a Procurement and               qualified and trained contract personnel                     Yes       Qtr. IV 2009    Qtr. I  2010       1
                          Admnistration                                                                    Survey
                                                                                                                                  Grant Staff Inspections Checklist/Survey at their        overseeing Recovery Act funds.  
                                                                                                                                  respective agencies, which will serve as the 
                                                                                                                                  foundation for the mandated report.


       3
                                                                                                                                     OIG inspected the offices of the Procurement          The complaince follow‐up review will determine 
                                                                                                                                     Executive (OPE), Aquisitions Management               if the Department has complied with OIG's 2006 
                                                                                                           Compliance Follow‐up 
                                                                                                                                     (AQM), and Small and Disadvantaged Business           recommendations (some of which could impact 
                                                                                                           Review of the offices of 
                                                                                                                                     Utilization (SDBU) in 2006.  OPE evaluates and        ARRA procurements). 
                                                                                                           the Procurement 
                            Bureau of                                                                                                monitors the Department's acquisition activities 
           State Dept.                      $600 million            Other Review                           Executive, Acquisitions                                                                                                                      No        Qtr. IV 2009    Qtr. I 2010        1
                          Administration                                                                                             while AQM aquires 80% of the Department's 
                                                                                                           Management, and Small 
                                                                                                                                     products and services worldwide.
                                                                                                           and Disadvantaged 
                                                                                                           Business Utilization.
       4
                                                                                                                                     The U.S. Section of the International Boundary        This audit will evaluate whether the International 
                                                                                                                                     and Water Commission (USIBWC) received $220           Boundary and Water Commission has adequate 
                                                                                                           Audit of the              million in ARRA funds.  These funds  are planned      controls in place to track and report on its $220 
                       U.S. Section of the 
                                                                                                           International
                                                                                                           International Boundary 
                                                                                                                         Boundary    for upgrading the Rio Grande
                                                                                                                                     for upgrading the Rio Grande Flood Control 
                                                                                                                                                                   Flood Control           million in Recovery
                                                                                                                                                                                           million in Recovery Act funds.
                                                                                                                                                                                                                Act funds.
                         International 
                                                                 Administrative /                          and Water                 System infrastructure along 506 miles of flood 
           State Dept.   Boundary and   $220 million                                  Co ntractor                                                                                                                                                 Yes           Qtr. IV 2009      Qtr. I  2010       1
                                                                 Financial                                 Commission's Controls     control levees maintained by the USIBWC along 
                             Water 
                                                                                                           for Tracking and          the Upper and Lower Rio Grande River.
                          Commission
                                                                                                           Reporting ARRA Funds

       5
                                                                                                                                     The Department received $600 million in ARRA          This interim limited scope review will evaluate 
                                                                                                                                     funds, which are planned for several large            whether the Department has adequate controls 
                                                                                                                                     programs and projects that include the Rio            in place to track and report on its $600 million in 
                                                                                                           Interim Report of the     Grande Flood Control System, Data Center, Hard        Recovery Act funds.
                                                                                                           Department of State's     Skills Training Center, and Cyber Security Tools.  
                                                                 Administrative /                                                    The majority of the Department's ARRA funding 
           State Dept. Dept‐wide            $600 million                              OIG Staff            Controls for Tracking                                                                                                                  Yes           Qtr. I 2010       Qtr. III 2010      5
                                                                 Financial                                                           will be obligated and expensed under multiple 
                                                                                                           and Reporting ARRA 
                                                                                                           Funds                     vendor procurements for equipment and 
                                                                                                                                     services.


       6
                                                                                                                                   OMB Memorandum M‐09‐12 requires Federal                 OIG will review the Department of State’s 
                                                                                                                                   agencies to develop internal policies and               process for monitoring recipient reporting of 
                                                                                                                                   procedures for reviewing  quarterly data                Recovery Act funds for the quarter ending 
                                                                                                                                   reported by recipients of Recovery Act funds and        September 30, 2009, to determine whether the 
                                                                                                                                   to perform limited data quality reviews to              Department has established a process to perform 
                                                                                                           Review of Agency Plans 
                                                                 Administrative /                                                  identify material omissions and/or significant          limited data quality reviews intended to identify 
           State Dept. Dept‐wide            $600 million                              OIG Staff            for Ensuring Data                                                                                                                    Yes             Qtr. IV 2009      Qtr. III‐IV 2010   4
                                                                 Financial                                                         reporting errors and notify the recipients of the       material omissions and/or significant reporting 
                                                                                                           Quality
                                                                                                                                   need to make appropriate and timely changes.            errors, and to notify the recipients of the need to 
                                                                                                                                                                                           make appropriate and timely changes.


       7




Page 2 of Work Plan                                                                                                                                                                                                                                                                                         State OIG Recovery Act FINAL Work Plan 101609.xlsx
                                                                                                                            OIG FY 2010 Recovery Act Work Plan

                A                B                     C                D                 E                F                                          G                                                    H                               I           J              K              L                M              Q
                                                                                                                            The Department is constructing five new              The audit will focus on the contracts awarded to 
                                                                                                                            passport agencies (Vermont, Buffalo, El Paso,        construct  five new passport agencies and 
                                                                                                                            Atlanta, and San Diego) and expanding two            expand two existing locations.  For the five new 
                                                                                                                            existing locations (Portsmouth and Hot Springs),     locations, the audit will review the site selection 
                                                                                                                            at a total cost of $15 million.                      process.  For all contracts, the audit will 
                                                                                                                                                                                 determine  whether contracted funds  were  
                                                                                                                                                                                 awarded and distributed in a prompt, fair, and 
                                                                                                                                                                                 reasonable manner.  Specific audit objectives 
                                                                                                                                                                                 include: Was a small business plan developed 
                                                                                                                                                                                 and were awards made competitively and based 
                                                                                                                                                                                 on the plan? Were the recipients and uses of all 
                                                                                                                                                                                 funds  transparent to the public, and were the 
                                                                                                                                                                                 public benefits of these funds  reported clearly, 
                         Bureau of                            Administrative /                 Audit of Consular Affairs                                                         accurately, and in a timely manner? Has the 
           State Dept.                       $15 million                          Contractor                                                                                                                                          No       Qtr. I 2010    Qtr. III 2010     1
                         Consular Affairs                     Financial                        Passport Facilities                                                               program assessed and identified the risks 
                                                                                                                                                                                 associated with the projects receiving Recovery 
                                                                                                                                                                                 Act funding and communicated the results to the 
                                                                                                                                                                                 Department? Were the funds used for authorized 
                                                                                                                                                                                 purposes?  Has the program taken action to 
                                                                                                                                                                                 identify and mitigate instances of fraud, waste, 
                                                                                                                                                                                 error, and abuse? Were established schedules 
                                                                                                                                                                                 monitored and delays properly justified? Were 
                                                                                                                                                                                 cost overruns and unnecessary delays avoided 
                                                                                                                                                                                 and lessons learned identified to prevent 
                                                                                                                                                                                 reoccurrence? Were program goals and specific 
                                                                                                                                                                                 program outcomes achieved? Were Department 
       8                                                                                                                                                                         standard processes and procedures for 
                                                                                                                            Total project cost is $105.5 million of which $70    This audit will initially focus on the architecture 
                                                                                                                            million is from ARRA funds.  ARRA and other          and engineering contract and, subsequently, on 
                                                                                                                            Department funds will be used to develop a           the site selection process and other contracts, to 
                                                                                                                            master plan and an Architectural & Engineering       determine  whether funds were awarded and 
                                                                                               Audit of Hard Skills         (A&E) study to frame the project scope cost and      distributed in a prompt, fair, and reasonable 
                       Bureau of                                                               Training Center              timelines.   After the scope and timelines have      manner.  The audit will review if whether a small 
                                                              Administrative /                                              been established then open source competitions       business plan was developed (including cost 
           State Dept. Diplomatic            $70 million                          Contractor   Construction ‐‐ Site                                                                                                                   No       Qtr. II 2010   Qtr. II‐IV 2010   5
                                                              Financial                                                     will be used for site selection and contract         sharing arrangements) and whether awards were 
                       Security                                                                Development and 
                                                                                               Contract Competition         awards.                                              competitive and based on the plan.  For specific 
                                                                                                                                                                                 audit objectives, see above. 



       9
                                                                                                                            The Department is constructing and/or                The audit will review Department plans and 
                                                                                                                            renovating classrooms and providing other            justifications to construct and/or renovate 
                                                                                                                            infrastructure upgrades.                             training center classrooms and provide other 
                                                                                               Audit of National                                                                 infrastructure upgrades.  For all contracts let for 
                       National Foreign 
                                                              Administrative /                 Foreign Affairs Training                                                          each project, the audit will determine  whether  
           State Dept. Affairs Training   $5 million                              Contractor                                                                                                                                          No       Qtr. I 2010    Qtr. IV 2010      1
                                                              Financial                        Center Construction                                                               contracted funds are were awarded and 
                       Center
                                                                                               projects                                                                          distributed in a prompt, fair, and reasonable 
                                                                                                                                                                                 manner.  For specific audit objectives, see above. 

      10
                                                                                                                         The data center program will build an enterprise  The audit will review Department plans and 
                                                                                                                         data center in the western U.S. and consolidate  justifications to build an enterprise data center in 
                                                                                                                         all domestic Department servers  into four           the western United States and consolidate all 
                                                                                                                         enterprise  data centers in the U.S.  The program  domestic Department servers into four 
                                                                                                                         will provide a highly available, scalable, and       enterprise data centers.  For all contracts 
                       Bureau of                                                                                         redundant data center infrastructure that will       awarded by September 2010, the audit will 
                                                              Administrative /                 Audit of Enterprise Data  substantially reduce the Department's risk of IT  determine  whether funds were awarded and 
           State Dept. Information           $120 million                         Contractor                                                                                                                                    No             Qtr. I 2010    Qtr. IV 2010      1
                                                              Financial                        Center Program            failure and provide for future IT growth.  Building  distributed in a prompt, fair, and reasonable 
                       Resources
                                                                                                                         the facilities should begin about September 2011  manner.  For specific audit objectives, see above. 
                                                                                                                         for 18 months and the centers begin operations  
                                                                                                                         about May 2012.


      11




Page 3 of Work Plan                                                                                                                                                                                                                                                                 State OIG Recovery Act FINAL Work Plan 101609.xlsx
                                                                                                                    OIG FY 2010 Recovery Act Work Plan

               A               B                C                  D                 E                F                                     G                                                     H                              I           J             K            L                M              Q
                                                                                                                   The Department will replace antiquated               The audit will review Department plans and 
                                                                                                                   telephone systems at a number of overseas            justifications to replace telephone systems at 
                                                                                                                   Diplomatic missions.  Many of the current            overseas diplomatic missions.   The audit will 
                                                                                                                   systems are 13‐15 years old and have  been           determine whether contracted funds were 
                                                                                                                   expanded to maximum capacity. In addition,           awarded and distributed in a prompt, fair, and 
                       Bureau of                                                          Audit of the Diplomatic  systems have experienced increased                   reasonable manner.  For specific audit objectives, 
                                                         Administrative / 
           State Dept. Information     $10 million                           OIG Staff    Facility Telephone       maintenance requirements by qualified                see above.                                          No       Qtr. II 2010   Qtr. IV 2010   1
                                                         Financial
                       Resources                                                          Systems Replacement  technicians at significant cost.   This replacement 
                                                                                                                   will bring the Department closer to achieving the 
                                                                                                                   industry standard lifecycle replacement of 10 
                                                                                                                   years.

      12
                                                                                                                   The Department is initiating a major program to  The audit will review Department plans and 
                                                                                                                   reduce the potential for successful cyber attacks  justifications to fund technical initiatives to 
                                                                                                                   against the Department and overseas against the  strengthen the Department's infrastructure 
                                                                                          Audit of Department of  foreign affairs community.  The program will        network to better protect information on U.S. 
                       Bureau of                                                                                   fund technical initiatives to strengthen the       citizens and national security.   The audit will 
                                                         Administrative /                 State Tools to Guard 
           State Dept. Information     $64.2 million                         Contractor                                                                               determine whether contracted funds were             No         Qtr. II 2010   Qtr. IV 2010   1
                                                         Financial                        Against and Track Cyber  Department's infrastructure network that can 
                       Resources                                                                                   better protect inform  ation on U.S. citizens and  awarded and distributed in a prompt, fair, and 
                                                                                          Attacks
                                                                                                                   national security.                                 reasonable manner.  For specific audit objectives, 
                                                                                                                                                                      see above.

      13
                                                                                                                   The Department will deploy secure state‐of‐the‐      The audit will review Department plans and 
                                                                                                                   art computer security systems between                justifications to fund technical initiatives to 
                                                                                          Audit of Department of  Department domestic facilities and embassies          provide senior overseas Department 
                                                                                          State Computer Security  worldwide.  The primary focus is to provide          management with next generation secure 
                      Bureau of 
                                                         Administrative /                 Systems Upgrade to       senior Department management  next                   telephones.   The audit will determine whether  No
                      Information      $25.4 million                         OIG Staff                                                                                                                                               Qtr. II 2010   Qtr. IV 2010   1
                                                         Financial                        Provide Secure           generation secure telephones.                        contracted funds were awarded and distributed 
                      Resources
                                                                                          Telephone                                                                     in a prompt, fair, and reasonable manner.  For 
                                                                                          Communications                                                                specific audit objectives, see above. 
      14
      15
      16
      17
      18
      19
      20




Page 4 of Work Plan                                                                                                                                                                                                                                                    State OIG Recovery Act FINAL Work Plan 101609.xlsx
